DION&
GOLDBERGER
---------------------

Office Address:

Samuel A. Dion^*
Benson I. Goldberger^

1845 Walnut Street, Suite 1199
Philadelphia, PA 19103
215-280-0138 (Direct—COVID-19)
Email: samueldion@aol.com

^Member of PA Bar
*Member of NJ Bar

February 5, 2021
Via Electronic Submission
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: No. 20-999, Lloyd Industries, Inc. v. Watson
Dear Mr. Bickell:
I am counsel for respondents in the above-referenced case. On January 13, 2021, a
certiorari petition was docketed in this case. Unless extended by the Court, the response would
be due on February 25, 2021. For the reasons that follow, and pursuant to Rule 30.4, I
respectfully request an extension of 30 days, to and including March 29, 2021.
I have several pressing obligations during these upcoming weeks, including my
obligations to comply with several court ordered discovery deadlines which were delayed during
the COVID-19 pandemic, but which are coming to an end during the month of February 2021,
and preparation for a trial currently scheduled for March 15, 2021 including the necessity to take
videotaped testimony from two expert witnesses in advance of trial during the next few weeks.
An extension will allow me to meet these obligations and also to file a response that adequately
addresses the points raised in the petition.
For these reasons, I ask that a 30-day extension be granted. Thank you for your attention
to this matter.
Sincerely,
/s/ Samuel A. Dion
SAMUEL A. DION
Counsel for Respondent
Cc: Theodore Forrence, Counsel for Petitioner

